No. IN THE SUPREME COURT OF THE
UNITED STATES
JOSEPH LOUIS PADUANO,
Petitioner
v.
COMMONWEALTH OF VIRGINIA
Respondent
CERTIFICATE OF SERVICE
I, Dale Jensen, a member of the Bar of this Court,
certify that on February 8, 2021, a copy of a
Petition for Writ of Certiorari in the above styled
case and a copy of this certificate were sent via
priority mail to the US Supreme Court for
delivery to the Clerk’s Office. I further certify
that a true and correct copy of the Petition for
Writ of Certiorari was sent by United States Mail
on this date to:
Attorney General’s Office
Counsel for Respondent
900 East Main Street
Richmond, Virginia 23219
Executed on February 8, 2021
/s/Dale R. Jensen
Dale R. Jensen
DALE JENSEN, PLC
606 BULL RUN
STAUNTON, VA 24401
(434) 249-3874
djensen@jensenjustice.com
Counsel for Petitioner

